Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 FOSTER CARE CHILDREN’S USE
   OF MEDICAID SERVICES IN
          OREGON




                    Inspector General

                      June 2004
                    OEI-02-00-00363
               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees state Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
 ,t"'C'S.


                 DEPARTMENT OF HEALTH &, HUMAN SERVICES                                       Office of Inspector General

.l.""JO
                                                                                              Washington , D. C.   20201



                                                       JUN   - 8   2004




              TO:	           Wade F. Horn , Ph.
                             Assistant Secretary for Children and Families




              FROM:



             SUBJECT:	 OIG Final Report: " Foster Care Children s Use of Medicaid Services in
                             Oregon " OEI- 02-00- 00363


             Attached for your review is a final report that assesses whether sampled Oregon foster
             care children are receiving Medicaid health care services. We conducted this inspection
             in response to concerns about the health care that foster care children are receiving.
             Oregon is one of eight States being evaluated.

              Our analysis of2 years of Medicaid claims for a random sample of 50 Oregon foster care
              children and interviews with their caseworkers and caregivers reveal that the children in
              the sample have Medicaid coverage and access to services. Targeted case management is
              the most common and most costly Medicaid claim for children in our sample. Yet , we
              found that recipients do not receive any extra, or even ordinary, health care as a result of
              targeted case management. Twenty of the 50 sampled foster care children do not have
            . preventive care claims during the study period. This lack of preventive care may be due
              in part , to the belief of some Oregon offcials that Oregon is not bound by any Early and
              Periodic Screening, Diagnosis , and Treatment (EPSDT) requirements. In fact , Oregon is
              bound by EPSDT requirements and is relieved only from its obligation to pay for services
              required to treat a condition identified during an EPSDT screening that are beyond the
              scope of the benefits package available to an individual receiving Medicaid. For some
              foster care children in the sample , caregivers have diffculty obtaining medical records
              and accessing dental and mental health services. In addition, sampled children placed
              out-of- State experience problems obtaining medical coverage.

             We believe that the Administration for Children and Families (ACF) and the Centers for
             Medicare & Medicaid Services (CMS) should work with the State of Oregon to ensure
             that all eligible foster care children receive appropriate health care services. Accordingly,
             we recommend that CMS review the use of targeted case management for foster care
Page 2 - Wade F. Horn , Ph. D. and Mark B. McClellan , M.      , Ph.

children in Oregon to ensure that it is consistent with State plan provisions and current
CMS requirements for this service. CMS may want to review the use of targeted case
management for foster care children in other States to determine the nature and cost of
this service. Also , CMS should work with Oregon to clarify the intent of Oregon s lll5
waiver and the State s obligations under EPSDT. ACF and CMS should work with
Oregon to promote preventive health care that is consistent with EPSDT guidelines.
Finally, ACF should work with Oregon and involved paries , such as the State child
welfare administrators and the administrators of the Interstate Compact on the Placement
of Children, to address the health care needs of foster care children placed across State
lines.

In response to our recommendations , CMS is completing a policy letter to the State
Medicaid Directors that wil define targeted case management activities that can be
claimed for Federal financial paricipation from the Medicaid program; adding two
authorities to Oregon s waiver list that wil clarify the intent; and working with the State
to promote preventive health care that is consistent with EPSDT guidelines. ACF reports
that it is actively working with Oregon in the areas of managed care , training, and follow-
up care. ACF plans to form a panel of State child welfare administrators , State foster
care managers , State adoption managers , and Interstate Compact on the Placement of
Children administrators to address the issues of placing foster care children across State
lines. We also received comments from the State of Oregon. Oregon stated that they
plan to continue to work with ACF and CMS to clarfy current policies and practices and
to improve future program delivery.

Please send us your final management decision , including any action plan , as appropriate
within 60 days. If you have any questions or comments about this report , please do not
hesitate to call me or one of your staff may contact Elise Stein , Director, Public Health
and Human Services Branch , at (202) 619- 2686 or through e-mail
 Elise. Stein(loig. hhs. gov). To facilitate identification , please refer to report number
OEI- 02- 00- 00363 in all correspondence.

Attachment
�         A B S T R A C T


                                  We reviewed a random sample of 50 children in foster care and
                                  found that they have Medicaid coverage and access to services.
                                  Targeted case management is the most common and most costly
                                  Medicaid claim for children in our sample. Yet, we found that
                                  recipients do not receive any extra, or even ordinary, health care
                                  as a result of receiving targeted case management. Twenty of
                                  the 50 sampled foster care children did not have preventive care
                                  claims during the study period. This lack of preventive care
                                  may be due, in part, to the belief of some Oregon officials that
                                  Oregon is not bound by any Early and Periodic Screening,
                                  Diagnosis, and Treatment (EPSDT) requirements. In fact,
                                  Oregon must comply with EPSDT requirements and pay for
                                  preventive care unless the EPSDT screening identifies a
                                  condition that is beyond the scope of the benefits package
                                  available to an individual. For some foster care children in the
                                  sample, caregivers have difficulty obtaining medical records and
                                  accessing dental and mental health services. In addition,
                                  sampled children placed out-of-State experience problems
                                  obtaining medical coverage. The Centers for Medicare &
                                  Medicaid Services (CMS) and the Administration for Children
                                  and Families (ACF) concurred with OIG recommendations that:
                                  CMS review the use of targeted case management; CMS clarify
                                  the intent of the EPSDT portion of Oregon’s 1115 waiver; ACF
                                  and CMS remind Oregon to cover and pay for preventive health
                                  care consistent with EPSDT; and ACF address the health care
                                  needs of foster care children placed across State lines.




    O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   i
E X E C U T I V E                                         S U M M A R Y 




                              OBJECTIVE
                              To determine whether Oregon’s foster care children are
                              receiving Medicaid health care services.


                              BACKGROUND
                              Currently, there are an estimated 534,000 children in foster care
                              nationwide, and many of them are reportedly in poor health.
                              Compared with children from the same socioeconomic
                              background, foster care children suffer much higher rates of
                              serious emotional and behavioral problems, chronic physical
                              disabilities, birth defects, and developmental delays. Despite
                              their need, it appears that many foster care children are not
                              receiving adequate health care.
                              This inspection focuses on the State of Oregon and is part of a
                              larger body of work in which eight States are being evaluated.
                              The analysis includes 2 years of Medicaid claims for 50 Oregon
                              foster care children and interviews with their caseworkers and
                              caregivers.


                              FINDINGS
                              Forty-nine of 50 foster care children in the sample have
                              Medicaid coverage and access to services
                              The foster care children in the sample in Oregon have medical
                              coverage and are accessing health care services. During the 2-
                              year inspection period, the vast majority of children in the
                              sample (49 out of 50) have at least 1 Medicaid claim for the time
                              they were in foster care. Overall, the number of Medicaid claims
                              per child in the sample ranges from 0 to 472. The majority of
                              caseworkers and caregivers report that their foster care children
                              have access to needed medical care.
                              Targeted case manageme nt is the most common and most
                              costly Medicaid claim for Oregon foster care children in the
                              sample
                              Representatives of Oregon Medicaid define targeted case
                              management services as assisting an individual in gaining
                              access to additional services. Targeted case management claims
                              account for 75 percent of all Medicaid health care payments for


O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   ii
E   X   E      C      U       T       I   V   E         S     U      M       M      A        R      Y


                                              the sample Oregon foster care children. Over the study period,
                                              Oregon's State Office for Services to Children and Families
                                              collected approximately $604 to $800 per month, per foster care
                                              child from Medicaid for targeted case management. These
                                              payments total $710,420 for our sample. We estimate the total
                                              payments for targeted case management for our sample
                                              universe to be approximately $71 million over the study period.
                                              It appears that recipients do not receive any extra, or even
                                              ordinary, health care as a result of receiving targeted case
                                              management.
                                              Twenty of the 50 foster care children in the sample do not
                                              have preventive care claims
                                              Twenty children in the sample show no preventive claims at all
                                              over 2 years. Eighteen of these 20 have been in continuous
                                              foster care for a year or more. None of the 50 children have
                                              Early and Periodic Screening, Diagnosis, and Treatment
                                              (EPSDT) claims. The lack of preventive care claims may be due
                                              to Oregon's lack of a clear periodicity schedule for preventive
                                              care and the belief of some State officials that Oregon is not
                                              bound by any EPSDT requirements. In addition, we found that
                                              confusion exists regarding the EPSDT portion of the State’s
                                              Section 1115 waiver, which relieves Oregon only from its
                                              obligation to pay for services required to treat a condition
                                              identified during an EPSDT screening that are beyond the scope
                                              of the benefits package available to an individual receiving
                                              Medicaid.
                                              Some children face problems due to incomplete medical
                                              records, access to certain health care services, and out-of-
                                              State medical coverage
                                              Medical records for children in the sample are often incomplete,
                                              and it appears that caseworkers may not be transferring the
                                              medical history to caregivers. Foster care children also face
                                              difficulties accessing dental and mental health services,
                                              although most children are able to get needed care eventually.
                                              Problems include wait time for appointments, lack of Medicaid
                                              providers, dissatisfaction with quality of care, and trouble
                                              determining which dentists in the area are Medicaid providers.
                                              In addition, foster care children placed out-of-State have
                                              difficulty obtaining medical coverage in their new State.


        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   iii
E   X   E      C      U       T       I   V   E         S     U      M       M      A        R      Y




                                              RECOMMENDATIONS
                                              We believe that the Administration for Children and Families
                                              (ACF) and the Centers for Medicare & Medicaid Services (CMS)
                                              should work with the State of Oregon to ensure that all eligible
                                              foster care children receive appropriate health care services.
                                              Accordingly, we recommend that:
                                              o	     CMS review the use of targeted case management for foster
                                                     care children in Oregon to ensure that it is consistent with
                                                     State plan provisions and current CMS requirements for this
                                                     service. CMS may also want to consider reviewing the use of
                                                     targeted case management for foster care children in other
                                                     States to determine the nature and the cost of this service.
                                              o	     CMS work with Oregon to clarify the State’s waiver and the
                                                     State’s obligations under EPSDT. CMS should also revise
                                                     the incorrect citation in the EPSDT portion of Oregon’s 1115
                                                     waiver.
                                              o	     ACF and CMS work with Oregon to promote preventive
                                                     health care that is consistent with EPSDT guidelines.
                                              o	     ACF work with Oregon and involved parties, such as the
                                                     State child welfare administrators and the administrators of
                                                     the Interstate Compact on the Placement of Children
                                                     (ICPC), to address the health care needs of foster care
                                                     children placed across State lines.
                                              Agency Comments
                                              We received comments from CMS and ACF. The full text of the
                                              comments are included in Appendix G. CMS concurs with our
                                              recommendations. In regard to targeted case management
                                              (TCM), CMS notes that it is “completing a major policy letter to
                                              the State Medicaid Directors that will define TCM activities that
                                              can be claimed for Federal financial participation from the
                                              Medicaid program.” We encourage CMS to issue this policy
                                              letter as soon as possible and to share it with all State child
                                              welfare agencies as well as the State Medicaid Directors.
                                              We are pleased that CMS is adding two authorities to the list of
                                              waived statutory provisions for Oregon that will clarify the
                                              terms of the waiver. CMS will also work with Oregon to ensure

        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   iv
E   X   E      C      U       T       I   V   E         S     U      M       M      A        R      Y


                                              the State understands that Oregon has obligations under the
                                              EPSDT program.
                                              CMS agrees to work with the State to promote preventive health
                                              care that is consistent with EPSDT guidelines. It is our hope
                                              that these efforts will include the formulation of a clear
                                              periodicity schedule, as required by the EPSDT program.
                                              In its comments, ACF notes that it is actively working with
                                              Oregon in the areas of managed care, training, and follow-up
                                              care. We encourage ACF to continue its current efforts. We also
                                              encourage ACF to address actively the issue of preventive care
                                              for foster care children, possibly through the Oregon Program
                                              Improvement Plan. The Oregon Program Improvement Plan
                                              was developed as a result of an ACF Child and Family Services
                                              Review, which measures individual States’ performance related
                                              to the health and well being of children in the child welfare
                                              system. Action Step 23.2.3 in the Oregon Program Improvement
                                              Plan calls for a clear policy for children receiving adequate,
                                              timely, necessary and culturally-competent mental health,
                                              medical and dental services. We believe preventive care should
                                              be thoroughly addressed in this policy.
                                              ACF plans to form a panel of State child welfare administrators,
                                              State foster care managers, State adoption managers, and ICPC
                                              administrators. This panel will “identify barriers, issues and
                                              suggested resolutions related to placing children across State
                                              lines.” We encourage the timely formation of this panel and
                                              look forward to receiving the panel’s findings.
                                              We also received comments from the State of Oregon. The full
                                              text of these comments can be found in Appendix G. The State
                                              responded that a medical chart review would have given a more
                                              accurate assessment of the services provided. The State believes
                                              that the text of the EPSDT portion of the 1115 waiver is correct
                                              and that the State carefully administers the targeted case
                                              management program. Oregon commented that the medical
                                              service problem in interstate placements needs to be addressed
                                              at the national level. Oregon plans to continue to work with
                                              ACF and CMS to clarify current policies and practices and to
                                              improve future program delivery.




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   v
T A B L E                        O F                 C O N T E N T S 




                    A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i




                    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . ii




                    I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1





                    F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                             Foster children have Medicaid coverage and access to services........ 7


                             Targeted case management is the most common and costly claim…9


                             Many children do not have preventive care claims ......................... 11


                             Some children face problems............................................................ 13




                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16





                    APPENDICES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


                             Appendix A: Oregon Administrative Rules...................................... 18


                             Appendix B: Comparison of Sample to Universe ............................. 22


                             Appendix C: Demographics ............................................................. 23


                             Appendix D: Description of 50 Foster Children in Sample ............ 25


                             Appendix E: Medicaid Claims for Sample ....................................... 26


                             Appendix F: Oregon Waiver, Excerpts from Social Security Act .... 27


                             Appendix G: Comments ................................................................... 28




                    ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . 46




O E I - 02 - 00 - 0 0 3 63       F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   VI

I N T R O D U C T I O N 




                              OBJECTIVE
                              To determine whether Oregon’s foster care children are
                              receiving Medicaid health care services.


                              BACKGROUND
                              Currently, there are an estimated 534,000 children in foster care
                              nationwide,1 and many of them are reportedly in poor health.
                              Compared with children from the same socioeconomic
                              background, foster care children suffer much higher rates of
                              serious emotional and behavioral problems, chronic physical
                              disabilities, birth defects, developmental delays, and educational
                              difficulties. 2 According to one source, half of all children in the
                              child welfare system suffer from developmental delays or mental
                              health problems that are serious enough to need clinical
                              intervention.3 In addition to the needs they share with other
                              children, such as immunizations, routine well-child
                              examinations, and treatment of childhood diseases, foster care
                              children clearly have a greater need for specialized health care
                              services.
                              Despite their need, it appears that many foster care children are
                              not receiving adequate health care. Many foster parents report
                              difficulty in finding health care professionals who are willing to
                              care for their children. It is estimated that 60 percent of all
                              children in out-of-home care have moderate to severe mental
                              health problems, yet less than one-third of those children receive
                              mental health services. 4 A General Accounting Office (GAO)
                              report issued in May 1995, entitled Health Needs of Many
                              Young Children are Unknown and Unmet, found that a
                              significant proportion of young foster care children did not
                              receive critical health-related services in the three locations

                              1   Retrieved from http://www.acf.dhhs.gov/programs/cb/dis/afcars/cwstats.htmlon
                                  1/27/04
                              2   Health Care of Young Children in Foster Care, Committee on Early Childhood,
                                  Adoption and Dependent Care, American Academy of Pediatrics, Pediatrics,
                                  Volume 109, Number 3. March 2002, pp 536-541
                              3   Pamphlet on “Ensuring the Healthy Development of Foster Care Children”, New
                                  York State Permanent Judicial Commission on Justice for Children, 1999, page 4
                              4   Factsheet: The Health Of Children In Out-Of-Home Care. Child Welfare League of
                                  America. Retrieved 3/14/2003 from:
                                  http://www.cwla.org/programs/health/healthcarecwfact.htm


O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   1
I   N   T    R       O      D         U   C   T    I    O      N


                                              studied (Los Angeles County, New York City, and Philadelphia
                                              County).5 In fact, GAO estimated that only 1 percent of these
                                              children received Early and Periodic Screening, Diagnosis, and
                                              Treatment (EPSDT) services.
                                              Medicaid for Foster Care Children
                                              The Medicaid program provides health care to specified groups
                                              of needy individuals. It is administered by the Centers for
                                              Medicare & Medicaid Services (CMS) and jointly funded by the
                                              Federal and State Governments. Within broad national
                                              guidelines, each of the States does the following: establishes its
                                              own Medicaid eligibility standards; determines the type,
                                              amount, duration, and scope of services; sets the rate of
                                              payment for services; and administers its own State Medicaid
                                              program. 6

                                              Almost all foster care children are eligible for Medicaid services.
                                              According to section 1902 (a)(10)(A)(i)(I) of the Social Security
                                              Act, foster care children covered under Title IV-E of the Social
                                              Security Act are eligible for Medicaid. Foster care children who
                                              are not eligible for Title IV-E usually qualify for Medicaid
                                              through other eligibility categories set forth by each State. In
                                              fiscal year 2000, Medicaid payments for foster care children
                                              nationwide were over $3.3 billion.7
                                              Early and Periodic Screening, Diagnosis, and Treatment (EPSDT).
                                              EPSDT is a Federal entitlement to comprehensive medical
                                              services for Medicaid-eligible children under the age of 21.
                                              While States have the flexibility to design their own Medicaid
                                              programs, the EPSDT program requires each State to provide
                                              coverage for comprehensive and preventive child health services
                                              to Medicaid-eligible individuals under the age of 21. In general,
                                              EPSDT treatment services include all mandatory and optional
                                              services available under the Medicaid program. Diagnostic
                                              services are covered whenever there is a medical need to conduct
                                              further examination. Treatment or medical care must be


                                              5   Healthy Needs of Many Young Children are Unknown and Unmet, General Accounting Office ,
                                                  GAO/HEHS-95-114, 1995, pages 2 and 5
                                              6   Retrieved 3/14/2003 from: http://www.cms.hhs.gov/medicaid/mover.asp
                                              7   Medicaid Expenditures for Federal Fiscal Year 2000, By Type of Service for
                                                  Maintenance Assistance Status and Basis of Eligibility All States; MSIS Report for
                                                  Federal fiscal year 2000. National Total for Foster Care children, page 3. Retrieved
                                                  from CMS website on 3/13/03: http://www.cms.gov/medicaid/msis/00total.pdf


        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   2
I   N   T    R       O      D         U   C   T    I    O      N


                                              provided for any physical or mental conditions discovered by the
                                              screening services.
                                              Under EPSDT, States must set distinct periodicity schedules for
                                              screening, dental, vision and hearing services, and services must
                                              be provided at intervals that meet reasonable standards of
                                              medical practice. States must consult with recognized medical
                                              organizations involved in child health care, such as the
                                              American Academy of Pediatrics, in developing reasonable
                                              standards. 8
                                              Oregon
                                              Child Welfare - Oregon's foster care system is centrally managed.
                                              At the time of this inspection, the State had just fewer than
                                              7,400 children in foster care.9 Also, at that time, the Oregon
                                              State Office for Services to Children and Families was
                                              responsible for administering child welfare programs, including
                                              foster care and adoptions. Since the inspection was conducted,
                                              Oregon has reorganized its social service system. The Children,
                                              Adults and Families group within the Department of Human
                                              Services is currently responsible for administering child welfare
                                              programs. During our study period, Oregon had 16 districts
                                              with 42 child welfare offices and employed about 949 child
                                              welfare caseworkers. Caseworkers in child welfare offices are
                                              responsible for the placement, monitoring, and coordination of
                                              services for foster care children.
                                              Oregon Medicaid - The Office of Medical Assistance Programs
                                              (OMAP) is also within the Department of Human Services.
                                              OMAP administers the Medicaid program in Oregon and is
                                              responsible for the Medicaid claims data.
                                              In Oregon, Medicaid is administered through the Oregon Health
                                              Plan (OHP). OHP offers three types of basic medical coverage: a
                                              fee-for-service plan; a managed care plan; and a primary care
                                              case management plan.
                                              Oregon Administrative Rules state that foster care children
                                              have the right to "ordinary medical, dental, psychiatric,
                                              psychological, and hygienic care and treatment when the child's

                                              8   Retrieved from CMS Website 3/28/03: http://www.cms.gov/medicaid/epsdt/
                                              9   Child Welfare Outcomes 1999: Annual Report, Section IV-C, State data pages,
                                                  Oregon (from AFCARS database, FY 99)
                                                  http://www.acf.dhhs.gov/programs/cb/publications/cwo99/statedata/or.htm


        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   3
I   N   T    R       O      D         U   C   T    I    O      N


                                              condition requires it."10 Also under Oregon Administrative
                                              Rules, all foster care children in the care and custody of the
                                              Department of Human Services receive the State's medical plan
                                              benefits. A small number of these children have too much
                                              income, such as survivor benefits, to be eligible for Medicaid
                                              under Title XIX. In these cases, health benefits are paid with
                                              State funds. 11
                                              Waivers - Under section 1115 of the Social Security Act, which
                                              provides the Secretary of the Department of Health and Human
                                              Services (HHS) with authority to authorize experimental, pilot,
                                              or demonstration projects that are likely to assist in promoting
                                              the objectives of the Medicaid statute, HHS approved waivers
                                              for the OHP Demonstration Project.
                                              HHS granted Oregon a partial waiver of the EPSDT
                                              requirement in 1995. The Section 1115 waiver allows Oregon to
                                              eliminate certain health care services in order to extend
                                              Medicaid coverage to more people. The text of the waiver states
                                              that Oregon is no longer obligated to pay for services required to
                                              treat a condition identified during an EPSDT screening that are
                                              beyond the scope of the benefit package available to an
                                              individual receiving Medicaid.
                                              Oregon now offers a benefits package under the OHP that is
                                              based on a list of primary and acute medical and mental illness
                                              conditions and services ranked by the Health Services
                                              Commission in Oregon.12 It is called the prioritized list of
                                              services and is approved by CMS.


                                              METHODOLOGY
                                              This inspection is based on information gathered from multiple
                                              sources: Medicaid claims data; a review of Federal and State
                                              laws, regulations, and policies; and interviews with State agency
                                              officials, caseworkers, and caregivers.



                                              10   See Appendix A, Oregon Administrative Rules (OAR): 413-010-0180
                                              11   See Appendix A, OAR 416-610-0140
                                              12  From Centers for Medicare & Medicaid Services website, retrieved 3/18/2003:
                                                  http://www.cms.gov/medicaid/1115/default.asp;
                                                  http://www.cms.gov/medicaid/1115/orfact.asp



        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   4
I   N   T    R       O      D         U   C   T   I     O      N


                                              Reasons for State Selection
                                              This inspection focuses on the State of Oregon and is part of a
                                              larger body of work in which eight States are being evaluated.
                                              Oregon was selected because of its size, centralized child welfare
                                              system, and geographic location.
                                              Sample
                                              Our population consisted of 5,004 Oregon children in continuous
                                              foster care placement for at least 6 months prior to July 2002.
                                              From this population, a simple random sample of 50 children
                                              was selected. See Appendices B through D for a comparison of
                                              the children in the sample to the population and a more detailed
                                              description of children in the sample.
                                              The size of the sample limits our ability to estimate the
                                              population from the sample. However, in the case of the amount
                                              spent for targeted case management claims, the variability of
                                              these amounts was relatively small (either $674 or $800,
                                              depending on what month the claim was submitted). Since the
                                              variability was small, we were able to produce an estimate of
                                              the amount spent on targeted case management claims in the
                                              population using standard statistical formulas for a simple
                                              random sample.
                                              Review of Medicaid Claims Data and State Laws and Policy
                                              Medicaid Claims Data - Oregon Medicaid provided a claims
                                              history for 2 years for all of the children in our sample. The
                                              data include claims with service dates between July 2000 and
                                              July 2002. Encounter data for children in managed care are
                                              also included in these data. We refer to all fee-for-service claims
                                              and managed care encounters as "claims," unless otherwise
                                              specified.
                                              In reviewing the Medicaid claims, we paid particular attention
                                              to the types of services, dates of service, and settings, where
                                              available. Medicaid claims data are organized into broad
                                              categories for analysis. We excluded claims that were not health
                                              care related, such as those for transportation and photocopying
                                              of medical records. We determined the periods of time the child
                                              was in foster care, based on information given by the State
                                              Medicaid office and caseworkers. We excluded claims with a
                                              service date for a time our data clearly show that the child was
                                              not in foster care. If it was not clear that the child was in foster


        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   5
I   N T R O D U C                   T   I     O      N


                                    care during a certain period of time, we included Medicaid
                                    claims corresponding to that time in our analysis.
                                    Law and Policy Reviews - We reviewed Federal and State laws
                                    and policies pertaining to the health care of foster care children.
                                    Interviews
                                    Caseworker Interviews - We interviewed caseworkers for the
                                    children in the sample either in person or by telephone. We
                                    spoke with 45 caseworkers, representing 47 children. (Two
                                    caseworkers were responsible for more than one child in the
                                    sample). Three caseworkers refused to cooperate, despite our
                                    repeated attempts to interview them and our repeated attempts
                                    to enlist the State's help in encouraging caseworker cooperation.
                                    The caseworkers we spoke with were the ones responsible for
                                    the children at the time the sample was pulled. Each interview
                                    focused on the caseworker's understanding of Medicaid, his or
                                    her experience accessing services for the sampled foster care
                                    children, and any barriers faced by foster care children in
                                    general for the time period of our inspection. Caseworkers also
                                    provided a written placement history for each child.
                                    Caregiver Interviews - We interviewed caregivers for 44 of the 50
                                    children in our sample. We were unable to reach and gain the
                                    cooperation of six caregivers. We use the term "caregiver" to
                                    refer to a foster parent or staff member of a residential facility
                                    who is responsible for the child. The caregivers we spoke with
                                    were the ones responsible for the children at the time the
                                    sample was pulled. Like the caseworker interviews, our
                                    interviews with caregivers focused on training, Medicaid, and
                                    procuring health services for the child for the time period of our
                                    inspection.
                                    State Agency Officials - We held several meetings, both in person
                                    and by telephone, with officials from the Oregon State
                                    Department of Human Services, State Office for Children and
                                    Family Services (now Children, Adults and Families group).
                                    Our discussions covered a wide spectrum of information to help
                                    us understand how the State's foster care and Medicaid systems
                                    are organized.
                                    This inspection was conducted in accordance with the Quality
                                    Standards for Inspections issued by the President's Council on
                                    Integrity and Efficiency.

      O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   6
         F I N D I N G S 



Forty-nine of 50 foster care children in the sample     The children in the sample in
  have Medicaid coverage and access to services	        Oregon have medical coverage,
                                                        which is required by Federal
                        and State laws. Forty-nine out of 50 foster care children in the
                        sample have at least 1 Medicaid claim between July 2000 and
                        July 2002. Caseworkers and/or caregivers reported that 47 of
                        the children in the sample had Medicaid coverage in Oregon at
                        the time of the interview. The caseworkers and caregivers for
                        the remaining children could not confirm Medicaid coverage.

                                       Most children in the sample have access to Medicaid services
                                       An analysis of Medicaid claims shows that the children in the
                                       sample are accessing health care services. As seen in Table 1,
                                       the majority of children in the sample (44 out of 50) have at
                                       least 1 office visit claim in a 2-year period while they were in
                                       foster care. The children in the sample with an office visit claim
                                       have an average of over six office visits each. In addition, 80
                                       percent of the children in the sample have a labwork or
                                       diagnostic claim.

                                       Overall, the number of Medicaid claims per child in the sample
                                       ranges from 0 to 472. The majority of caseworkers and
                                       caregivers believe that their foster care children have access to
                                       needed medical care. Eighty-seven percent of the caseworkers
                                       and 82 percent of the caregivers interviewed report that their
                                       child receives needed medical care.
                                       Further, despite reported barriers to access that will be
                                       discussed later, foster care children seem to be accessing mental
                                       health services in addition to other medical services. Thirty-
                                       three children in the sample (66 percent) have 2,079 mental
                                       health claims over the 2-year inspection period.




         O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   7
F   I   N    D       I    N       G   S




                                            Table 1: Number and Type of Medicaid Claims for 50 Children
                                            in Sample


                                                                                                     Number of Children
                                                                                                                                             Total Number of
                                                                                                     with at Least One                       Claims
                                            Claim Type                                               Claim

                                            Targeted case management                                                                  49                       962

                                            Office visit                                                                              44                       295

                                            Labwork/Diagnostic                                                                        40                       374

                                            Mental health                                                                             33                   2079

                                            Prescription drug                                                                         31                       683

                                            Immunization                                                                              30                       199

                                            Preventive                                                                                30                       59

                                            Dental                                                                                    28                       314

                                            Emergency Room                                                                            23                       59

                                            Supplies                                                                                  22                       86

                                            School-based services                                                                     19                       54

                                            Vision                                                                                    18                       99

                                            Physical/Occupational therapy                                                              8                       138

                                            Hospital                                                                                   7                       29

                                            Clinic                                                                                     7                       24

                                            Hearing/Speech                                                                             6                       27

                                            Other                                                                                      4                       10

                                            Home visit                                                                                 3                        5
                                            Total                                                                                                         5,496

                                            Source: OIG Analysis of Oregon Medicaid Claims Data



                                          The foster care children in the sample have a variety of reported
                                          conditions. According to caseworkers and caregivers, 82 percent
                                          (41 out of 50) of the children in our sample have a medical or
                                          mental health problem. These problems include asthma,
                                          seizures, depression, anxiety, developmental delays, and abuse.
                                          See Appendix D for a description of reported medical and mental
                                          health problems of children in the sample.




        O E I - 02 - 00 - 0 0 3 6 3       F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON                           8
   F   I   N    D       I    N       G   S


                                             Foster care children in Oregon sometimes receive health care services
                                             outside of Medicaid
                                             According to caregivers and caseworkers, 19 children receive
                                             health care services paid for by a source other than Medicaid.
                                             These other services are paid for by foster parents, branch
                                             funds, or by schools or non-profit organizations. Branch offices
                                             have State funds available to them to be used for services not
                                             covered by Medicaid. Most of the additional services received
                                             were related to mental health treatments or prescription drugs.



Targeted case management is the most common                            Case management is allowable
                                                                       under Medicaid (section
     and most costly Medicaid claim for Oregon
                                                                       1905(a)(19) of the Social Security
                            foster care children in our sample
                                                                       Act), and defined in section
                                        1915(g)(2) as services which will assist an individual eligible
                                        under the State plan in gaining access to needed medical, social,
                                        educational and other services. Representatives of Oregon
                                        Medicaid define targeted case management services as assisting
                                        an individual in gaining access to additional services.
                                             Targeted case management claims account for the majority of
                                             Medicaid payments for Oregon foster care children. Forty-nine
                                             out of 50 foster care children in our sample have a Medicaid
                                             claim for targeted case management services paid to Oregon's
                                             State Office for Services to Children and Families. These
                                             targeted case management payments occur virtually every
                                             month the children are in care during the 2-year study period.
                                             This includes children in fee-for-service and managed care
                                             plans.
                                             Oregon’s State Office for Services to Children and Families
                                             collected approximately $604 to $800 per month per foster child
                                             for targeted case management over the study period. By way of
                                             comparison, Medicaid pays $101 for Medicaid managed care per
                                             month per foster child in Oregon. In total, the State collected
                                             $710,420 from Medicaid for targeted case management for the
                                             50 children over the 2-year study period. (See Appendix E.)
                                             This amount represents an estimated 75 percent of all Medicaid
                                             health care payments for these children over this period.
                                             We estimate targeted case management payments for our
                                             sample population to be $71 million over the study period (plus

           O E I - 02 - 00 - 0 0 3 6 3       F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   9
F   I   N    D       I    N       G   S


                                          or minus $7 million at the 95 percent confidence level). Our
                                          population is a subgroup of all Oregon children in foster care
                                          (5,004 out of 7,400).
                                          The State collects the same amount for each child each month
                                          the child is in foster care. For instance, all targeted case
                                          management claims in November 2000 are $800 each. All
                                          targeted case management claims in December 2001 are $674
                                          each. The type and degree of physical and mental health
                                          impairments among children showing these targeted case
                                          management claims vary widely. While some children appear to
                                          have complex medical and emotional problems, others appear to
                                          have none. In fact, six children have no reported physical or
                                          mental health impairments at all; yet, they each have a targeted
                                          case management claim every month along with the rest of the
                                          sample.
                                          It appears that recipients do not receive any extra, or even
                                          ordinary, health care as a result of receiving targeted case
                                          management. As noted earlier, Oregon Medicaid
                                          representatives define targeted case management services as
                                          assisting an individual in gaining access to additional services.
                                          Yet, some children show repeated targeted case management
                                          claims during long stretches of time without any other Medicaid
                                          services. For example, 1 child has a targeted case management
                                          claim every month for 21 consecutive months with only 1 other
                                          Medicaid claim for that entire time period. This child's
                                          caseworker and caregiver report that the child does not receive
                                          other health care services outside of Medicaid. In addition, 17
                                          children in the sample show no preventive care claims but have
                                          targeted case management claims for virtually every month that
                                          they were in foster care.




        O E I - 02 - 00 - 0 0 3 6 3       F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   10
    F   I      N       D      I     N     G   S

Twenty of the 50 foster care children in the sample                                                                          Sampled children lack EPSDT
                               do not have preventive care claims                                                            claims andpreventive care
                                                                                     The children in the sample
                                                  may not be receiving an appropriate level of preventive care
                                                  even though preventive care is covered under the Oregon Health
                                                  Plan. The Medicaid data show no claims at all for EPSDT
                                                  services for the children in our sample. Twenty children also
                                                  show no preventive care claims over the 2-year study period.
                                                  Eighteen of these children have been in continuous foster care
                                                  for a year or more. Table 2 provides the ages for these 18
                                                  children.


                                                                Table 2: Number of Children in
                                                                Continuous Foster Care for
                                                                At Least One Year with No
                                                                Preventive Claims
                                                                                                         Number of Children
                                                                                                         Without Preventive
                                                                Age                                      Claims
                                                                                                  4                                            2

                                                                                                  6                                            3

                                                                                                  7                                            2

                                                                                                 10                                            1

                                                                                                 12                                            2

                                                                                                 13                                            1

                                                                                                 15                                            1

                                                                                                 16                                            4

                                                                                                 17                                            2
                                                                Total                                                                        18
                                                                Source: OIG Analysis of Oregon Medicaid Data



                                                  The EPSDT program requires that each State establish a
                                                  periodicity schedule at intervals that meet reasonable standards
                                                  of medical practice. Oregon's prioritized list of Medicaid services
                                                  includes preventive care, but it does not provide a specific
                                                  schedule for these services, nor does it provide recipients or
                                                  providers with a clear periodicity schedule for preventive care.




            O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON       11
F   I   N    D       I    N       G   S


                                          Confusion exists regarding the EPSDT portion of the State's waiver
                                          and implementation
                                          There appears to be confusion regarding the breadth of the
                                          EPSDT portion of the 1115 waiver. We learned during
                                          interviews that some State representatives are under the
                                          impression that Oregon is waived from all EPSDT requirements,
                                          which, in fact, it is not. Since EPSDT requires periodic health
                                          screenings of children, the belief that Oregon is not bound by
                                          EPSDT may contribute to the lack of preventive care we see in
                                          the sample children.
                                          The EPSDT portion of Oregon’s Section 1115 waiver eliminates
                                          the requirement that the State must pay for services to treat a
                                          condition identified during an EPSDT screening that are beyond
                                          the scope of the benefit package available to the individual.
                                          (The benefit package is Oregon’s Health Services Commission
                                          Prioritized List of Health Services.) However, the waiver
                                          approval incorrectly cites the section of the Social Security Act
                                          that is being waived as section 1902(a)(43)(A). Section
                                          1902(a)(43)(A) is the requirement that States must inform
                                          Medicaid-eligible children of the EPSDT benefits available to
                                          them. (Appendix F includes the full text of the EPSDT portion
                                          of the waiver and the Social Security Act citation.)
                                          Oregon’s Department of Human Services has recently
                                          commented that the “State believes that the text of the waiver is
                                          correct and that the State is waived from payments of conditions
                                          identified during an EPSDT screening.” The State’s comments
                                          do not address other EPSDT requirements. CMS, also in recent
                                          comments, explains Oregon’s responsibilities. CMS states that
                                          the intent of the waiver was that “Oregon would not pay for
                                          treatment of conditions identified as part of an EPSDT
                                          screening if the treatment of that condition was not covered on
                                          the Prioritized List of Health Care Services. When granting this
                                          waiver, CMS intended that Oregon would be required to comply
                                          with all other requirements of the entire EPSDT program.”




        O E I - 02 - 00 - 0 0 3 6 3       F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   12
 F   I   N    D       I    N       G   S


                                                                                                                  Medical records are often incomplete
Some children face problems due to incomplete                               Caregivers may not be able to
 medical records, access to certain health care                             meet their legal obligation if
  services, and out-of-State medical coverage                               they do not receive available
                                                                            medical records. Oregon
                                           requires caregivers to maintain a health care record for the
                                           child, including medical history and immunization records for a
                                           period of 3 years. If a child moves, records must be transferred
                                           to the child's new home. (See Appendix A, OAR 309-046-0190
                                           (11).)
                                           Caseworkers may not be transferring medical histories to
                                           caregivers. Nineteen of the 44 caregivers interviewed say they
                                           did not receive any of their foster child's medical history at all.
                                           Yet, 46 out of the 47 caseworkers interviewed indicate that they
                                           had received at least some medical history on the foster child in
                                           the sample.
                                           Some children encounter problems accessing dental and mental
                                           health services
                                           Difficulties accessing dental and mental health services are
                                           reported, although most children are able to get needed care
                                           eventually. Caregivers for 16 children report a problem
                                           accessing needed dental care. Problems include wait time for
                                           appointments, lack of Medicaid providers, dissatisfaction with
                                           quality of care, and trouble determining which dentists in the
                                           area were Medicaid providers. Twelve of the 16 children who
                                           experienced a problem report eventually being able to get the
                                           care they needed. For example, some caseworkers find
                                           alternative sources of funding in the community for braces or
                                           other cosmetic dental procedures. When asked about all foster
                                           care children, not just children in our sample, nearly half the
                                           caseworkers interviewed mention that foster care children in
                                           general have problems accessing dental care.

                                           Of the 35 children in the sample with a reported mental health
                                           problem, caregivers of 14 complain about mental health services.
                                           Specifically, the caregivers of seven of these children feel that
                                           the treatment that their child receives is inadequate. The
                                           caregivers of the remaining children encounter problems or
                                           barriers accessing mental health services, such as wait time for
                                           appointments, lack of Medicaid providers, lack of
                                           services/coverage, and difficulty finding good quality of care.

         O E I - 02 - 00 - 0 0 3 6 3       F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON     13
F   I   N    D       I    N       G   S


                                          Caseworkers, too, cite problems with mental health services.
                                          Caseworkers for 16 children feel that foster care children in
                                          general, not just those in the sample, experience barriers
                                          accessing mental health services.
                                          Caregivers and caseworkers also report problems accessing
                                          prescription medications. Nine children in the sample
                                          experience problems getting needed prescriptions. Eight of the
                                          nine children are eventually able to get the prescriptions they
                                          need.
                                          Foster care children placed out-of-State experience problems
                                          accessing care
                                          Our data show that five children in the sample were placed out-
                                          of-State for at least some portion of the 2-year inspection period.
                                          One of the 5 was out of State for 22 months of the inspection
                                          period. The other four were out of State for less than 1 year.

                                          It appears from the claims data that all five out-of-State
                                          children had Medicaid coverage in Oregon while they were
                                          living in Oregon. Yet, only one of them seems to have Medicaid
                                          coverage in the other State in which they were placed. Three of
                                          the five caregivers cite problems getting a Medicaid card as a
                                          barrier to the child's access to health care.
                                          All 50 States, including Oregon, are members of the Interstate
                                          Compact on the Placement of Children (ICPC), which requires
                                          that a foster child placed over State lines receive adequate
                                          protections and support services. It establishes procedures for
                                          placement and compels the placing agency, sometimes called the
                                          “sending agency,” to maintain responsibility for the child. The
                                          language of the ICPC, however, does not specifically require that
                                          a foster child placed over State lines receive a Medicaid card in
                                          his/her new State. According to Oregon’s Department of Human
                                          Services Client Services Manual, the sending agency is
                                          responsible for arranging for medical coverage for the child
                                          before the child is placed in another State.
                                          Caseworker involvement with the five out-of-State children in
                                          our sample varies. Two caseworkers say that they do not know
                                          if their child has a Medicaid card. The caregivers for these
                                          children report that their Oregon caseworker is not involved in
                                          their child’s health care. Two other caseworkers are more
                                          involved. For example, one caseworker says she knows that the

        O E I - 02 - 00 - 0 0 3 6 3       F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   14
F   I   N    D       I    N       G   S


                                          child does not have Medicaid coverage, and it is her
                                          responsibility to get it, but she has not been successful yet. The
                                          child has been without coverage for over a year, and the
                                          caregiver is paying for all of the child's medical care out-of-
                                          pocket. A second caseworker reports difficulties in getting a
                                          Medicaid card in the new State and directing the child to the
                                          right place to get care. The caseworker for the remaining child,
                                          according to the caregiver, is involved in the child’s health care,
                                          although the child does not yet have a Medicaid card in the new
                                          State.
                                          Despite a lack of medical coverage, all five caregivers of the out-
                                          of-State children say that their foster care child has received a
                                          well-child exam while in their care. In some cases, the caregiver
                                          pays out-of-pocket for this care. These services are not captured
                                          in Medicaid claims data.




        O E I - 02 - 00 - 0 0 3 6 3       F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   15
R E C O M M E N D A T I O N S 



                              We believe that the Administration for Children and Families
                              (ACF) and CMS should work with the State of Oregon to ensure
                              that all eligible foster care children receive appropriate health
                              care services. Accordingly, we recommend that:
                              o	     CMS review the use of targeted case management for foster
                                     care children in Oregon to ensure that it is consistent with
                                     State plan provisions and current CMS requirements for this
                                     service. CMS may also want to consider reviewing the use of
                                     targeted case management for foster care children in other
                                     States to determine the nature and the cost of this service.
                              o	     CMS work with Oregon to clarify the State’s waiver and the
                                     State’s obligations under EPSDT. CMS should also revise
                                     the incorrect citation in the EPSDT portion of Oregon’s 1115
                                     waiver.
                              o	     ACF and CMS work with Oregon to promote preventive
                                     health care that is consistent with EPSDT guidelines.
                              o	     ACF work with Oregon and involved parties, such as the
                                     State child welfare administrators and the administrators of
                                     ICPC, to address the health care needs of foster care
                                     children placed across State lines.
                              Agency Comments
                              We received comments from CMS and ACF. The full text of the
                              comments are included in Appendix G. CMS concurs with our
                              recommendations. In regard to targeted case management
                              (TCM), CMS notes that it is “completing a major policy letter to
                              the State Medicaid Directors that will define TCM activities that
                              can be claimed for Federal financial participation from the
                              Medicaid program which are integral and inseparable functions
                              of the foster care and child welfare programs, and the social
                              service block grant (Social Security Act (the Act) titles IVB, IVE
                              and XX).” We encourage CMS to issue this policy letter as soon
                              as possible and to share it with all State child welfare agencies
                              as well as the State Medicaid Directors.
                              We are pleased that CMS is adding two authorities to the list of
                              waived statutory provisions for Oregon that will clarify the
                              terms of the waiver. CMS will also “work with Oregon to ensure
                              the State recognizes that the current waiver…is not a waiver of
                              the requirements of the entire EPSDT program, but rather for


O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   16
R   E   C      O       M       M      E   N   D      A      T      I    O      N      S


                                              the payment of treatment for conditions identified as part of an
                                              EPSDT screening, if such conditions are not covered by the
                                              Prioritized List.”
                                              CMS agrees to work with the State to promote preventive health
                                              care that is consistent with EPSDT guidelines. It is our hope
                                              that these efforts will include the formulation of a clear
                                              periodicity schedule, as required by the EPSDT program.
                                              In its comments, ACF notes that it is actively working with
                                              Oregon in the areas of managed care, training, and follow-up
                                              services. The action steps for these efforts are included in the
                                              Oregon Program Improvement Plan, developed in response to an
                                              ACF Child and Family Services Review. These reviews measure
                                              individual States’ performance related to the health and well-
                                              being of children in the child welfare system. We encourage
                                              ACF to continue its current efforts. We also encourage ACF to
                                              address actively the issue of preventive care for foster care
                                              children. Action Step 23.2.3 in the Oregon Program
                                              Improvement Plan calls for a clear policy for children receiving
                                              adequate, timely, necessary and culturally competent mental
                                              health, medical and dental services. We believe preventive care
                                              should be thoroughly addressed in this policy.
                                              ACF plans to form a panel of State child welfare administrators,
                                              State foster care managers, State adoption managers, and ICPC
                                              administrators. This panel will “identify barriers, issues and
                                              suggested resolutions related to placing children across State
                                              lines.” We encourage the timely formation of this panel and
                                              look forward to receiving the panel’s findings.
                                              We also received comments from the State of Oregon. The full
                                              text of these comments is included in Appendix G. Oregon
                                              states that a file review would give a more accurate assessment
                                              of services provided. Oregon believes that the text of the EPSDT
                                              portion of the 1115 waiver is correct and that the State carefully
                                              administers the targeted case management program. Oregon
                                              commented that the medical service problem in interstate
                                              placements needs to be addressed at the national level. Oregon
                                              plans to continue to work with ACF and CMS to clarify current
                                              policies and practices and to improve future program delivery.




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   17
A P P E N D I X ~ A 



                              Oregon Administrative Rules (OAR)
                              413-010-0180 Ba sic Rights of Children in the State Office for Services
                              to Children and Families’s (SOSCF's) Custody.
                              Each child placed in the legal custody of SOSCF has the
                              following rights:
                              (1) To be physically placed in the least restrictive environment
                              that can appropriately meet the child's needs;
                              (2) To be provided basic needs such as adequate food, clothing,
                              and shelter;
                              (3) To receive care, supervision, and discipline, and to be taught
                              to act responsibly and respect the rights of others;
                              (4) To be provided ordinary medical, dental, psychiatric,
                              psychological, and hygienic care and treatment when the child's
                              condition requires it;
                              (5) To be provided with free and appropriate education;

                              (6) To be protected from physical and sexual abuse, emotional
                              abuse and exploitation;
                              (7) To be provided services which will reunite the child with his
                              or her own family except when there is clear evidence that the
                              family will not protect the child's welfare;
                              (8) To be provided services to develop a safe, permanent
                              alternative to the child's own family, when suitable family
                              resources are not available;
                              (9) To be accorded the least restrictive legal status that is
                              consistent with the child's need for protection or the protection
                              of the community, and to receive advocacy and/or legal
                              representation, when needed, to assure that the child's best
                              interests are presented to the court;
                              (10) To receive respect and be nurtured in accordance with his or
                              her background, religious heritage, race and culture;
                              (11) To visit and communicate with members of his or her family
                              within reasonable guidelines as set by the service plan and by
                              the court;
                              (12) To be involved, in accordance with his or her age and ability
                              and with the law, in making major decisions that affect his or
                              her life;

O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   18
A   P   P      E      N       D       I   X   ~   A


                                              (13) To receive encouragement and be afforded reasonable
                                              opportunities to participate in sports, youth activities in school
                                              and neighborhood, and other enrichment programs;
                                              (14) To earn and keep his or her own money and to receive
                                              guidance in managing resources to prepare him or her for
                                              independence.


                                              416-610-0140 GA Medical Policy
                                              All children in paid substitute care who do not meet the
                                              eligibility requirements for Title XIX, will be eligible for General
                                              Assistance (GA) medical through OMAP.


                                              309-046-0190 Standards and Practices for Care and Services:
                                              (11) Child Records. A record shall be developed, kept current
                                              and available on the premises for each child admitted to the
                                              foster home:
                                               (a) General Information. The provider shall maintain a record
                                              for each child in the home. The record must include:
                                              (A) The child's name, date of entry into the foster home, date of
                                              birth, gender, religious preference, and guardianship status;
                                               (B) The name, addresses, and telephone number of the child's
                                              guardian, family, advocate, or other significant person;
                                               (C) The name, address, and telephone number of the child's
                                              preferred primary health provider, designated back up health
                                              care provider and/or clinic, dentist, preferred hospital, medical
                                              card number and any private insurance information, and
                                              Oregon Health Plan choice;
                                               (D) The name, address, and telephone number of the child's
                                              school program; and
                                               (E) The name, address, and telephone number of the CMHP
                                              case manager and representatives of other agencies providing
                                              services to the child.
                                               (b) Child records shall be available to representatives of the
                                              Division and SOSCF conducting inspections or investigations, as
                                              well as to the child, if appropriate, and the guardian, or other
                                              legally authorized persons.



        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   19
A   P   P      E      N       D       I   X   ~    A


                                               (c) Child records shall be kept for a period of three years. If a
                                              child moves or the foster home closes, copies of pertinent
                                              information shall be transferred to the child's new home.
                                                  (d) Medical Information shall include:

                                               (A) History of physical, emotional and medical problems,
                                              accidents, illnesses or mental status that may be pertinent to
                                              current care;
                                               (B) Current orders for medications, treatments, therapies, use
                                              of restraints, special diets and any known food or medication
                                              allergies;
                                              (C) Completed Medication Administration Records (MAR) from
                                              previous months;
                                               (D) Pertinent medical information such as hospitalizations,
                                              accidents, immunization records including Hepatitis B status
                                              and previous TB tests, incidents or injuries affecting the health,
                                              safety or emotional well-being of the child; and
                                              (E) Documentation or other notation of guardian consent for
                                              medical treatment that is not routine, including surgery and
                                              anesthesia.
                                               (e) Individual Support Plan. The child's ISP is prepared by the
                                              ISP team, and addresses each child's behavior, medical and
                                              support needs. The ISP shall be developed within 60 days of
                                              placement and updated annually or whenever the child's needs
                                              change. The ISP shall describe the child's behavior, medical,
                                              support needs and capabilities, and will include by whom, when,
                                              and how often care and services will be provided.
                                              (f) Financial records:

                                               (A) A separate financial record must be maintained for each
                                              child if the provider manages or handles the child's money.
                                               (B) Each child's financial record shall document the receipt of
                                              the room and board fee that is paid to the provider at the
                                              beginning of each month.
                                               (C) Any single item over $50 purchased with the child's
                                              personal funds, unless otherwise indicated in the child's ISP,
                                              will be documented including receipts, in the child's financial
                                              record.


        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   20
A   P   P      E      N       D       I   X   ~   A


                                               (D) The child's ISP team will address how the child's personal
                                              spending money will be managed and documented.
                                               (E) If the child has a separate commercial bank account, records
                                              from that account must be maintained with the financial record.




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   21
A P P E N D I X ~ B 



                                      Comparison of Children in Sample to Universe of Oregon Foster Care
                                      Children in Continuous Care for 6 Months
                                      As shown in the table below, gender and ages of the children in
                                      the sample are similar to that of the universe of all Oregon
                                      foster care children in continuous care for 6 months prior to
                                      sample selection. Slightly more than half of the sample and
                                      universe are male. Thirty percent of both the sample and
                                      universe are age 5 or under, roughly 34 percent are between the
                                      ages of 6 and 12, about 36 percent are age 13 or over.



                              Comparison of Children in Sample to Universe


                                                                       50 Children in Sample                               Universe


                                                                      Count                     % of Total                       Count           % of Total
                              GENDER


                                 Male                                                27                       54%                        2619           52%

                                 Female                                              23                       46%                        2385           48%

                              Total                                                  50                     100%                         5004*         100%

                              AGE


                                 0-2                                                 10                       20%                         647           13%

                                 3-5                                                  5                       10%                         859           17%

                                 6-9                                                 10                       20%                         981           20%

                                 10-12                                                7                       14%                         861           17%

                                 13-17                                               18                       36%                        1484           30%

                                 18+                                                  0                         0%                        172            3%

                              Total                                                  50                     100%                         5004*         100%

                              Source: Oregon Medicaid Data



                                      * The universe of foster care children in continuous foster care for 6
                                      months prior to sample selection was 5,004 children. The total
                                      number of foster care children in care at the time of sample
                                      selection was approximately 7,400.



O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON                        22
       A P P E N D I X ~ C


                                            Demographics
                                            The table below shows demographic and health characteristics
                                            of each of 50 sampled children, including the amount of time
                                            they were in foster care during our 2-year study period.
                                            Placement setting refers to the type of foster care placement the
                                            child was in at the time our sample was pulled in July 2002.


                                                                                    Caseworker or
                                                                 Caseworker or
                 Age                  Placement                                   Caregiver Reported                                           Amount of Time in
ID   Sex                                                       Caregiver Reported
               (years)                  Setting                                     Mental Health                                               Care (Months)
                                                               Medical Problem(s)     Problem(s)
1    M              15                Residential                               Y                                          Y                          24
2    M              12                   Family                                 N                                          Y                          19
3    M              15                   Family                                 Y                                          Y                          24
4    M              11                   Family                                 N                                          Y                          24
5     F              6                   Family                                 N                                          N                          23
6    M              16               No Information                             Y                                          Y                          24
7    M              13                   Family                                 Y                                          Y                          24
8    M               4                  Kinship                                 Y                                          N                          24
9     F             13                  Kinship                                 N                                          Y                          24
10   M               2                   Family                                 Y                                          N                          24
11    F             14               No Information                             N                                          Y                          24
12   M              17                   Family                                 Y                                          Y                          23
13   M               9                  Kinship                                 N                                          Y                          22
14    F              5                   Family                                 Y                                          Y                          24
15    F             12                   Family                                 N                                          Y                          24
16    F              5                   Family                                 N                                          N                          21
17   M              10               No Information                             Y                                          Y                          24
18   M              14                Residential                               N                                          Y                          24
19   M              16                   Family                                 Y                                          Y                          24
20    F             17                   Family                                 Y                                          Y                          24
21   M              10                   Family                                 N                                          Y                          24
22   M              17                   Family                                 N                                          Y                          24
23   M               2                   Family                                 N                                          N                          24
24   M               6                   Family                                 Y                                          N                          24
25    F              2               No Information                             N                                          N                          24
26   M               6                  Kinship                                 Y                                          Y                          10
27    F              7                   Family                                 Y                                          Y                          24
28   M              13                Residential                               Y                                          Y                          23
29   M              13                Residential                               N                                          Y                          10




       O E I - 02 - 00 - 0 0 3 6 3          F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON                  23
      A   P       P   E     N       D       I   X     ~    C




                                                                                               Caseworker or
                                                                            Caseworker or
                        Age                     Placement                                    Caregiver Reported                                           Amount of Time in
 ID       Sex                                                             Caregiver Reported
                      (years)                     Setting                                      Mental Health                                               Care (Months)
                                                                          Medical Problem(s)     Problem(s)
 30           F             7                       Family                                 Y                                          Y                          22
 31           M            16                    Kinship                                   Y                                          Y                          24
 32           F             6                    Kinship                                   N                                          Y                          22
 33           F             1                    Kinship                                   N                                          Y                          22
 34           F             7                       Family                                 N                                          Y                          24
 35           M             0                       Family                                 N                                          N                          9
 36           F             1                       Family                                 N                                          N                          10
 37           M             0                       Family                                 Y                                          N                          10
 38           F             1                       Family                                 Y                                          Y                          11
 39           F             7                       Family                                 N                                          Y                          24
 40           M             1                    Kinship                                   N                                          N                          16
 41           F             5                    Kinship                                   Y                                          N                          24
 42           F             2                       Family                                 Y                                          Y                          23
 43           F             4               No Information                     No Information                             No Information                         24
 44           F            13                       Family                                 N                                          Y                          24
 45           M             9                       Family                                 Y                                          Y                          24
 46           M            11                       Family                                 Y                                          Y                          19
 47           F            16                       Family                                 Y                                          N                          24
 48           F            11                    Kinship                                   Y                                          Y                          17
 49           M            15                       Family                                 N                                          Y                          24
 50           F            15                       Family                                 N                                          N                          24

Source: Oregon Medicaid Data, OIG analysis of interview data.




              O E I - 02 - 00 - 0 0 3 6 3              F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON                  24

A P P E N D I X ~ D 



                              Description of 50 Oregon Foster Care Children in
                              Sample
                              Medical problems
                              Caseworkers or caregivers report that approximately 50 percent
                              of the children in our sample have at least one medical problem.
                              Medical problems included acne, asthma, cerebral palsy, drug
                              affected, vision problems, obesity, seizures, allergies, heart
                              problems, and genetic disorders. Caseworkers or caregivers also
                              report that at least 70 percent of the children in our sample
                              have a minimum of 1 mental health problem. The most common
                              mental health problems are related to depression, anxiety, or
                              emotional disorders. Caregivers, in particular, note many
                              problems with anger or behavioral issues. A number of children
                              also suffer from attention-deficit or attention-deficit-
                              hyperactivity disorder and/or post-traumatic stress disorder.
                              Still other children have developmental delays, learning
                              disabilities, and suffer from some form of abuse or neglect.
                              Types of Medicaid enrollment
                              Foster care children sometimes have several different
                              placements or go in and out of foster care, so they often
                              participate in a few plans. Most children in our sample were
                              enrolled in more than one type of plan under the Oregon Health
                              Plan during our inspection period. Forty-two children were
                              enrolled in a managed care plan for at least some portion of our
                              study period. Thirty-three were enrolled in a fee-for-service
                              plan, and three were enrolled in a primary care case
                              management plan at some point. In addition, some children
                              were enrolled in one type of plan for medical coverage and
                              another type of plan for dental and/or mental health services.
                              For example, a child might have a fee-for-service medical plan
                              but be enrolled in a dental health maintenance organization
                              plan.




O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   25
                A P P E N D I X ~ E 




Number and Amount of Fee-for-Service and Managed Care Claims
for 50 Children in Sample During the 2-year Inspection Period:
                                                                               FEE FOR SERVICE                                               MANAGED CARE



           Claim Type

Targeted case management                                 962                         962                      $710,420                             0        **

Office visit                                             295                         109                          $4,934                         186        **

Labwork/Diagnostic                                       374                         158                          $3,693                         216        **

Mental health                                          2079                          517                        $57,136                          1562       **

Prescription drug                                        683                         666                        $55,711                           17        **

Immunization                                             199                           74                         $8,914                         125        **

Preventive                                                 59                          34                         $2,108                          25        **

Dental                                                   314                           19                            $669                        295        **

Emergency Room                                             59                          25                         $1,751                          34        **

Supplies                                                   86                          18                         $1,486                          68        **

School-based services                                      54                          54                         $5,386                           0        **

Vision                                                     99                          22                            $565                         77        **

Physical/Occupational therapy                            138                           44                         $2,500                          94        **

Hospital                                                   29                            7                        $1,398                          22        **

Clinic                                                     24                            3                           $433                         21        **

Hearing/Speech                                             27                          10                            $342                         17        **

Other                                                      10                            9                        $1,886                           1        **

Home visit                                                   5                           0                                 0                       5        **

TOTAL

Source: OIG Analysis of Oregon Medicaid Data

** Medicaid pays an average capitated rate of $101.22 per child per month for managed care services.13 Children in the sample
were in managed care a total of 731 out of 1101 months.




                                              13 http://www.dh s.state.or.us/healthplan/data_pubs/archives/caprates01-02.pdf
                                                 PricewaterhouseCoopers LLP report on Oregon Health Plan Medicaid
                                                 Demonstration, Capitation Rate Development, Federal Fiscal Year 2002; 9/25/01,
                                                 page 18, Exhibit 2, Statewide Capitation Rate for Fiscal Year 2002


                O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON              26
A P P E N D I X ~ F 



                              EPSDT Portion of Oregon’s Section 1115 Waiver
                              (Excerpt from October 15, 2002, Approval Letter from CMS)

                              “Under the authority of section 1115(a)(1) of the Act, the
                              following waivers of Medicaid and SCHIP State plan
                              requirements contained in section 1902 and 2103 of the Act are
                              granted to enable Oregon to carry out the Oregon Health Plan 2
                              demonstration through this period:


                                7. Early and Periodic Screening,                                                          Section 1902(a)(43)(A)

                                Diagnosis and Treatment 

                                (EPSDT)

                                To waive the requirement that States must pay for services
                                required to treat a condition identified during an EPSDT
                                screening that are beyond the scope of the benefit package
                                available to the individual.”


                              Excerpt from Social Security Act: Section 1902 (a)(43)(A)
                              “SEC. 1902. [42 U.S.C. 1396a] (a) A State plan for medical
                              assistance must-­
                              (43) provide for-­

                              (A) informing all persons in the State who are under the age of
                              21 and who have been determined to be eligible for medical
                              assistance including services described in section 1905(a)(4)(B),
                              of the availability of early and periodic screening, diagnostic,
                              and treatment services as described in section 1905(r) and the
                              need for age-appropriate immunizations against vaccine-
                              preventable diseases,”




O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON                27
�   A P P E N D I X                                    ~           G 





    O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   28

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   29

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   30

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   31

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   32

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   33

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   34

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   35

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   36

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   37

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   38

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   39

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   40

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   41

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   42

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   43

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   44

A   P   P      E      N       D       I   X   ~   G




        O E I - 02 - 00 - 0 0 3 6 3           F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   45

A C K N O W L E D G M E N T S 



                              This report was prepared under the direction of John I. Molnar, 

                              former Regional Inspector General for Evaluation and 

                              Inspections in the New York Regional Office, and Jodi 

                              Nudelman, Assistant Regional Inspector General. Other 

                              principal Office of Evaluation and Inspections staff who 

                              contributed include:


                              Nancy Harrison, Team Leader

                              Laura Torres, Lead Analyst

                              Natasha Besch, Program Analyst

                              Nicole Gillette, Program Analyst

                              Thomas Zimmermann, Program Analyst

                              Linda Hall, Program Specialist

                              Barbara Tedesco, Statistician





O E I - 02 - 00 - 0 0 3 6 3   F O S T E R C A R E C H I L D R E N’ S U S E   OF   ME D I C A I D SE R V I C E S   IN   O REGON   46
